Audit of USAID/Guatemala-Financed Agriculture
Activities Under the Central America and the
Caribbean Emergency Disaster Recovery Fund

Audit Report No. 1-520-01-010-P

August 16, 2001

San Salvador, El Salvador
U.S. Agency for
 INTERNATIONAL
  DEVELOPMENT

 RIG/San Salvador


August 16, 2001

MEMORANDUM
FOR:                USAID/Guatemala Director, George Carner

FROM:               RIG/San Salvador, Timothy E. Cox

SUBJECT:            Audit of USAID/Guatemala-Financed Agriculture Activities
                    Under the Central America and the Caribbean Emergency
                    Disaster Recovery Fund (Report No. 1-520-01-010-P)


This memorandum is our report on the subject audit. In finalizing the
report, we considered your comments on the draft report. Your comments
are included in their entirety in Appendix II.

This report contains two recommendations for your action. For the first
recommendation, a management decision has been reached and final action
can be recorded when supporting documentation for actions taken is
submitted. Please coordinate final action with the Office of Management
Planning and Innovation (M/MPI/MIC).

For the second recommendation, no management decision has been
reached. We request that you provide us written notice within 30 days of
any additional information related to the actions planned or taken to
implement this recommendation.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                               1
Table of   Summary of Results                                         3
Contents
           Background                                                 3

           Audit Objectives                                           5

           Audit Findings                                             5

                  Are USAID/Guatemala’s agriculture activities
                  on schedule to achieve planned outputs?             5

                         Two implementing organizations did
                         not report complete information              6

                  Has USAID/Guatemala implemented an adequate
                  monitoring system for its agriculture activities?   7

                         USAID/Guatemala did not
                         consistently monitor outputs                 8

           Management Comments and Our Evaluation                     10

           Appendix I - Scope and Methodology                         11

           Appendix II - Management Comments                          13

           Appendix III – Planned Outputs and Actual Results          15




                                                                           2
Summary of   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/Guatemala’s
             agriculture activities were on schedule to achieve planned outputs and
             whether it has implemented an adequate monitoring system for its agriculture
             activities (see page 5).

             For those items tested, three of the five agriculture activities audited were
             on schedule to achieve planned outputs. We were unable to determine if
             the remaining two activities were on schedule to achieve planned outputs
             because we were not able to verify reported accomplishments. Therefore,
             we recommend that USAID/Guatemala obtain and verify cumulative
             outputs for these two activities (see pages 5 through 7).

             We also found that USAID/Guatemala had not implemented an adequate
             monitoring system for its agriculture activities because it was not
             consistently monitoring outputs. Therefore, we recommend that
             USAID/Guatemala provide its activity managers training for managing and
             monitoring assistance agreements (see pages 7 through 9).

             In its comments to the draft audit report, USAID/Guatemala stated that the
             report helped ensure more effective implementation of the program and
             that the mission had already taken action to address both recommendations.
             For the first recommendation, a management decision was reached. For the
             second recommendation, however, USAID/Guatemala stated that
             performance monitoring training was held, but did not mention training for
             managing assistance agreements. Hence, no management decision has
             been reached (see page 10).


Background   In October 1998, Hurricane Mitch, one of the most destructive storms ever to
             affect Central America, swept across Guatemala. In Guatemala, the storm
             killed approximately 300 people and forced the evacuation of 107,000. The
             hurricane devastated the agriculture sector, destroying 225,000 acres of basic
             grains, coffee, vegetables and bananas, resulting in an estimated $280 million
             in foregone exports and revenues. In addition, over 50 major and 2,000
             minor irrigation systems were damaged.

             In May 1999, Congress passed the Emergency Supplemental Appropriations
             Act, creating the Central America and the Caribbean Emergency Disaster
             Recovery Fund, which provided a total of $621 million in reconstruction
             assistance for countries hit by Hurricanes Mitch and Georges and for
             Colombia for earthquake damages. Guatemala received $25 million of this
             $621 million.




                                                                                             3
                          To use the funding provided by Congress, USAID/Guatemala designed a
                          Special Objective entitled Rural Economy Recovers from Mitch and is Less
                          Vulnerable to Disasters. The second intermediate result under this objective
                          relates to agriculture activities. This audit covered three sub-intermediate
                          results: 1) Small Scale Irrigation System and Land Rehabilitation, 2)
                          Polochic Watershed Management, and 3) Seed Recovery and Multiplication.
                          To achieve these sub-intermediate results, USAID/Guatemala has entered into
                          several agreements. The following chart lists the five agriculture activities
                          audited, the implementing organizations, and obligations and accrued
                          expenditures as of March 31, 2001, according to USAID/Guatemala’s
                          records.1

                                     Name                  Description of         Obligations          Accrued
                                                             Activities             3/31/01         Expenditures
                                                                                  (unaudited)          3/31/01
                                                                                                     (unaudited)
                           National Coffee              Rehabilitation of           $2,412,290         $2,392,108
                           Association                  coffee plants and
                           (ANACAFE)                    processing
                                                        facilities.
                           CARE                         Reforestation and            6,000,000           2,587,306
                                                        natural resource
                                                        management.
                           Catholic Relief              Reforestation and            2,500,000           2,000,000
                           Services (CRS)               natural resource
                                                        management.
                           International Center         Rehabilitation of            3,681,714           1,558,131
                           for Agricultural             flood control and
                           Development Pre-             irrigation
                           Investment                   infrastructure.
                           (CIPREDA) and U.S.
                           Army Corps of
                           Engineers
                           Institute of Science         Seed production              1,000,000             624,424
                           and Agricultural             and distribution.
                           Technology (ICTA)
                                                                                  $15,594,004           $9,161,969


1
 We did not audit a $350,000 agriculture activity with the Tropical Agricultural Center for Research and Education
because of the small amount of resources provided to this activity.




                                                                                                                     4
Audit        As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Objectives   Salvador performed the audit to answer the following questions:

             •      Are USAID/Guatemala’s agriculture activities on schedule to achieve
                    planned outputs?

             •      Has USAID/Guatemala implemented an adequate monitoring system
                    for its agriculture activities?

             The audit scope and methodology is presented in Appendix I.



 Audit       Are USAID/Guatemala’s agriculture activities on schedule to achieve
             planned outputs?
 Findings
             For those items tested, three of the five agriculture activities audited were
             on schedule to achieve planned outputs. We were unable to determine if
             the two remaining activities were on schedule to achieve planned outputs
             because the implementing organizations did not report complete
             information on their accomplishments.

             For activities being implemented by ANACAFE, CARE, and the U.S.
             Army Corps of Engineers/CIPREDA, we concluded that, for those items
             tested, activities were on schedule to achieve planned outputs.

             More specifically, ANACAFE is to rehabilitate coffee plants and
             processing facilities. As of February 2001, 69 percent of the time available
             under ANACAFE’s agreement with USAID/Guatemala had passed. Since
             the percentage of completion of both planned outputs exceeded the
             percentage of time passed under the agreement, we concluded that the
             activity was on schedule. A detailed list of planned outputs and actual
             results, as of February 2001, are included as Table 1 in Appendix III.

             Second, under a cooperative agreement with USAID, CARE is to promote
             reforestation and natural resource management. As of December 31, 2000,
             62 percent of the time available to complete these activities had passed.
             Since 90 percent of the outputs were at least 62 percent complete, we
             concluded that the activity was on schedule. A detailed list of planned
             outputs and actual results, as of December 2000, are included as Table 2 in
             Appendix III.

             Third, through an agreement with the Government of Guatemala, USAID is
             funding the construction and/or reconstruction of nine infrastructure


                                                                                              5
activities in the Hurricane Mitch-affected watersheds. As of April 2001, all
but one of the eight activities approved by USAID/Guatemala were on
schedule. The eighth activity, which was carried out on behalf of CARE,
was delayed about 12 weeks because it took longer than expected for
CARE to contract with CIPREDA and for CIPREDA to obtain the
necessary licenses to begin construction. However, because this activity
represents a relatively small part of the total activities carried out by
CIPREDA, and because the reasons for delays had already been addressed
by CIPREDA, we concluded that CIPREDA’s activities as a whole were on
schedule to achieve planned outputs. A comparison of CIPREDA’s
planned and actual outputs is presented as Table 3 in Appendix III.

Two Implementing Organizations
Did Not Report Complete Information

The cooperative agreements with CRS and ICTA included planned outputs
to be achieved by these organizations. However, the information reported
by these organizations could not be used to assess progress toward
achieving planned outputs because the reported information was
incomplete. We believe that these reporting problems were due to
administrative weaknesses within the implementing organizations and were
also due to the fact that USAID/Guatemala was not consistently monitoring
planned and actual outputs. As a result, USAID/Guatemala, CRS, and
ICTA did not have the information they needed to make sure that planned
outputs would be achieved on time.

Catholic Relief Services – Through a cooperative agreement with USAID,
CRS is to restore, on a more sustainable basis, natural resource-based food
security of small-farm families. CRS is to produce seven outputs dealing
with watershed management, reforestation, and improved farming
practices. Individual activities are being implemented by four local
organizations under sub-agreements with CRS.

The information reported by CRS could not be used to assess progress
toward achieving planned outputs because CRS did not report cumulative
progress as required by the terms of its cooperative agreement with
USAID/Guatemala. At the end of our audit, CRS provided us with a
cumulative progress report that CRS developed by analyzing reports
submitted by its sub-grantees. However, it was too late for us to verify the
information contained in the report. Furthermore, CRS officials indicated
that the information in the report was not always reliable: for example, the
report stated that five watershed plans were developed but, according to
CRS officials, none had in fact been developed.




                                                                               6
Institute of Science and Agricultural Technology – Under an agreement
between USAID and the Government of Guatemala (acting through ICTA,
which is a component of the Ministry of Agriculture), USAID is funding
seed production and distribution for corn, beans, rice, potatoes, and sesame
seeds. According to ICTA’s approved workplan, the activity has several
planned outputs dealing with seed production, distribution, and training.

The information reported by ICTA could not be used to assess progress
toward achieving planned outputs because ICTA’s reports did not address
several of the planned outputs contained in its approved workplan, such as
seed distribution, production of certified seed, and training in seed
production.

While we did not ascertain the specific causes of the reporting problems
discussed above, it appears to us that the problems were due to
administrative weaknesses within the implementing organizations and were
also due to the fact that USAID/Guatemala was not consistently monitoring
planned and actual outputs.

As a result of these reporting problems, USAID/Guatemala and the
implementing organizations did not have the information they needed to
make sure that planned outputs would be achieved on time.

       Recommendation No. 1: We recommend that
       USAID/Guatemala obtain and verify the cumulative
       outputs achieved by Catholic Relief Services and the
       Institute of Science and Agricultural Technology.

Has USAID/Guatemala implemented an adequate monitoring
system for its agriculture activities?

USAID/Guatemala has not implemented an adequate monitoring system
for its agriculture activities.

For one of the five activities audited – specifically, the activity
implemented by CIPREDA/U.S. Army Corps of Engineers – we found that
USAID/Guatemala has implemented an adequate monitoring system. For
the infrastructure activities carried out by CIPREDA/U.S. Army Corps of
Engineers, USAID/Guatemala was performing site visits and reviewing
progress reports to ensure that planned outputs were being achieved. It was
also adhering to the monitoring arrangements provided for in individual
project implementation letters and FAR agreements, such as authorizing
payment to CIPREDA only after the U.S. Army Corps of Engineers
certified that projects were completed in conformity with agreed-upon
technical specifications.



                                                                             7
                             However, for the remaining four activities, USAID/Guatemala had not
                             implemented an adequate monitoring system, as discussed in the following
                             section.

                             USAID/Guatemala Did Not
                             Consistently Monitor Outputs

                             Mission monitoring requirements are established in USAID’s Automated
                             Directives System (ADS) as well as in the cooperative agreements.
                             However, for the four activities carried out by ANACAFE, CARE, CRS,
                             and ICTA, USAID/Guatemala was not consistently monitoring outputs or
                             providing the approvals contemplated by the substantial involvement
                             understandings in its cooperative agreements. These monitoring
                             weaknesses occurred because Mission officials were not fully aware of
                             their monitoring responsibilities. As a result, as discussed above (pages 6
                             and 7), for two of these organizations, USAID/Guatemala had no reliable
                             information on the degree to which the organizations were achieving
                             planned outputs.

                             Section 202.3.4 of the ADS states that a major task of mission staff
                             generally includes monitoring the quality and timeliness of outputs
                             produced by implementing organizations. Early action in responding to
                             problems is critical to the process of managing for results. While the
                             means of monitoring outputs are left up to missions to decide, two
                             techniques that are have been successfully used by many missions are (1)
                             reviewing progress reports provided by implementing organizations and (2)
                             performing site visits to observe first hand the activities being undertaken
                             by implementing organizations.

                             USAID/Guatemala visited activities carried out by all four implementing
                             organizations and that all four implementing organizations had submitted
                             progress reports. However, Mission officials were not performing site
                             visits or reviewing progress reports with the objective of monitoring
                             outputs. USAID/Guatemala officials raised a similar issue in its annual
                             evaluation of its system of management controls, dated October 2000. This
                             evaluation suggested that Mission staff meet more regularly with
                             implementing organizations to review progress towards established results
                             and pay more attention to lower-level indicators on a more regular basis.2

                             Another monitoring issue deals with the substantial involvement
                             understandings included in cooperative agreements. In the cooperative
                             agreements between USAID/Guatemala and three grantees (ANACAFE,
                             CARE and CRS), a section entitled “Substantial Involvement
                             Understandings” provided that USAID/Guatemala would approve in
2
    Lower-level indicators include outputs.



                                                                                                           8
                          writing the grantees’ annual workplans, monitoring and evaluation plans,
                          and any sub-awards entered into by them to achieve any aspects of their
                          programs.3 Annual workplans describe the implementing organizations'
                          approaches and activities, as well as expected outputs, results, and
                          benchmarks for the year. Monitoring and evaluation plans include annual
                          and life-of-project indicators and benchmarks for measuring the
                          accomplishment of results. These plans also describe data collection
                          sources and methodologies as well as the definitions of each result
                          indicator.

                          We did not find any evidence that USAID/Guatemala had approved
                          workplans for ANACAFE, CARE, or CRS. In addition, USAID/
                          Guatemala had not approved any of the monitoring and evaluation plans for
                          these organizations. Finally, while USAID/Guatemala had approved the
                          sub-awards made by CARE and ANACAFE, it had not approved sub-
                          awards made by CRS.

                          Interviews with USAID/Guatemala managers indicated that they were
                          uncertain about their specific monitoring roles and responsibilities. For
                          example, some Mission officials understood that oral approvals were
                          sufficient for workplans and monitoring and evaluation plans, even when
                          written approvals were explicitly required by the cooperative agreements.
                          In addition, the Mission’s contracting officer stated that the definition of
                          sub-awards had been a point of confusion and discussion in the past.
                          Finally, the USAID/Guatemala’s annual evaluation of its management
                          controls made mention of turnover within the Mission and suggested that
                          training for contract technical officers (that is, activity managers) would be
                          appropriate. We concluded that training on monitoring responsibilities and
                          techniques would be helpful in better ensuring that that USAID/Guatemala
                          complies with its monitoring responsibilities.

                          The monitoring weaknesses left USAID/Guatemala without information
                          that it needed to help ensure that planned outputs would be achieved on
                          time. We believe that Mission monitoring weaknesses were at least
                          partially responsible for the problems discussed above on pages 6 and 7 of
                          this report.

                                   Recommendation No. 2: We recommend that
                                   USAID/Guatemala provide its activity managers
                                   training on monitoring responsibilities and techniques.


3
 CARE’s agreement did not specifically state “in writing;” however, we believe that, even in this case, putting
approvals in writing is desirable to avoid any misunderstanding or uncertainty later on concerning what approvals
have been given.




                                                                                                                    9
Management       In its comments to the draft audit report, USAID/Guatemala stated that the
Comments and     report helped ensure more effective implementation of the program and
Our Evaluation   that the mission had already taken action to address both recommendations.
                 For the first recommendation, a management decision was reached.

                 For the second recommendation, USAID/Guatemala stated that some of its
                 staff attended a performance monitoring course and then trained others in
                 the mission. However, this performance monitoring course was geared
                 toward developing results frameworks and performance indicators. It did
                 not provide training on the management of assistance agreements, such as
                 roles and responsibilities of activity managers in monitoring progress.
                 Therefore, the training course did not directly address the types of
                 monitoring problems discussed in this audit report. Hence, no management
                 decision has been reached. In order to reach a management decision on
                 this recommendation, USAID/Guatemala needs to develop a firm plan of
                 action for providing its staff with training on managing assistance
                 agreements, such as the USAID training course entitled “Acquisition and
                 Assistance for Cognizant Technical Officers”.

                 USAID/Guatemala’s comments on the draft report are included in their
                 entirety in Appendix II.




                                                                                         10
                                                                                Appendix I



Scope and     Scope
Methodology
              We audited USAID/Guatemala-financed agriculture activities in accordance
              with generally accepted government auditing standards. Total obligations
              and accrued expenditures at March 31, 2001, totaled $15.6 million and $9.2
              million, respectively. We did not audit a $350,000 agriculture activity with
              the Tropical Agricultural Center for Research and Education because of the
              small amount of resources provided to this activity.

              We conducted the audit at USAID/Guatemala, the offices of several
              implementing organizations, and several sites throughout Guatemala. We
              conducted the audit from March 19, 2001 through April 26, 2001 and covered
              the period from July 22, 1999 (the inception of the first of the audited
              activities) through April 26, 2001.

              The audit focused on whether the agriculture activities were on schedule to
              achieve their planned outputs and whether USAID/Guatemala had
              implemented an adequate monitoring system. We assessed the Mission’s
              management controls related to monitoring and reporting on the agriculture
              activities. Specifically, we assessed controls for approving workplans,
              monitoring and evaluation plans, and sub-awards; reviewing progress reports;
              performing site visits; obtaining financial audits when required; and reporting
              outputs.

              Methodology

              To answer the audit objectives, we reviewed documentation at
              USAID/Guatemala, which included project design documents and
              implementing agreements between parties. These documents provided the
              activities’ planned outputs and funding. In addition, we reviewed
              implementing organizations’ and their sub-recipient’s progress reports and
              workplans.

              To answer the first audit objective, we interviewed responsible officials at
              USAID/Guatemala and the implementing entities. In addition, we
              reviewed relevant documentation obtained from these organizations. We
              confirmed the actual progress by performing site visits to 34 of the 527
              activity locations (selected randomly) shown in the following table.


                 Implementing            Total Number of             Number of Sites
                 Organization                  Sites                    Visited
               ANACAFE                                     56                            4
               CARE                                       305                           13
               CRS                                        129                           11


                                                                                           11
                                                                   Appendix I


 CIPREDA/U.S.                                   8                             4
 Army Corps of
 Engineers
 ICTA                                         29                              2

Because the sample sizes were small, we limited our conclusions to those
items tested.

Since most activities did not have time-phased work plans that showed
what outputs were expected to be completed at the time of our audit, we
had to develop other criteria for determining whether the activities were on
schedule. Therefore, we allocated life-of-activity output targets on a
straight-line basis over the life of each activity. We considered that an
activity was on schedule if at least 90 percent of the outputs had achieved a
percentage of completion at least equal to the percentage of time passed
since inception of the activity. This threshold reflected our judgments
about the level of performance that is practical and attainable under the
audited activities.

For the infrastructure activities implemented by CIPREDA/U.S. Army
Corps of Engineers, we used CIPREDA’s time-phased workplan to
determine whether or not individual infrastructure activities were on
schedule. Where individual activities were delayed, we assessed the
significance of the activity in relation to the total, the magnitude of the
delays, the reasons for the delays, and the corrective actions taken by
CIPREDA to determine whether a significant implementation problem
existed.

To answer the second audit objective, we first determined what monitoring
mechanisms were established in the implementing agreements, then
identified other monitoring methods that we considered best management
practices: specifically, performing site visits and reviewing progress
reports. We then interviewed USAID/Guatemala officials and reviewed
implementing agreements. We also reviewed USAID/Guatemala files,
performed site visits, and interviewed implementing organizations, their
sub-recipients, and beneficiaries, to assess whether established monitoring
mechanisms were being followed.




                                                                              12
                                                                                      Appendix II




Management
Comments



                                                                        UNITED STATES GOVERNMENT

                                                                       Memorandum
                                                                                      UNCLASSIFIED




DATE:          August 14, 2001

TO:            Mr. Timothy E. Cox, RIG/SS

REPLY TO
ATTN OF:       George Carner, USAID/G-CAP DIR

SUBJECT: Audit of USAID/Guatemala -Financed Agriculture Activities Under the Central
America and the Caribbean Emergency Disaster Recovery Fund (Report No. 1-520-01 -OOX-P).

We are in basic agreement with the two recommendations contained in the subject draft audit
report.

Regarding recommendation No. 1 relating to incomplete information from two implementing
organizations, we have already obtained and verified the cumulative outputs in the field for ICTA
and CRS. We will submit all relevant documentation for RIG review to close out this
recommendation as soon as the audit report is put in final.

Regarding recommendation No. 2 relating to inadequate Mission monitoring of agricultural
activities, we are taking steps to implement monitoring systems and to train our staff in
monitoring techniques. First, the Income SO team, which manages the agricultural activities
under the Hurricane Mitch Rehabilitation program as well as other DA, ESF, and PL480 Title II
financed activities, conducted a review of all the cooperative agreements that it manages to ensure
that partners were in full compliance with the reporting and subagreement approval requirements
of each agreement. Clear delegation of authority for monitoring was also provided to each
activity manager

Second, the Mission sent 8 employees to El Salvador in June 2001 to attend a week long
Performance Monitoring course. Upon their return, the 8 employees conducted abbreviated
training sessions for an additional 27 Mission employees on what they learned in the course in El
Salvador. The Mission training committee also plans on




                                                                                                 13
                                                                                      Appendix II



                                                                         UNITED STATES GOVERNMENT

                                                                 Memorandum
                                                                       UNCLASSIFIED



conducting the Performance Monitoring course at Post during FY02. We will ensure that activity
managers from all Mission SO teams participate in this course. The intent is that all Mission
activity managers will have received training in this important area.

The Mission appreciates the high quality effort RIG staff put into this audit. The audit
recommendations helped ensure a more effective field implementation of a high priority and time
sensitive program.




                                                                                               14
                                                                   Appendix III

               Planned and Actual Outputs

ANACAFE

 Description of Outputs         Life-of-          Actual Results Percentage
                                Project           as of February   Achieved
                                Targets                 2001
 Hectares of coffee                  1,600                   2,021     126%
 rehabilitated.
 Coffee processing                     24                    19           79%
 facilities constructed or
 rehabilitated.
                                   Table 1

CARE (continues on the following two pages)

   Description of Outputs          Life-of-           Actual      Percentage
                                   Project          Results as of  Achieved
                                   Targets           December
                                                       2000
 Hectares reforested.                   669                   712      106%
 Trees planted.                     712,750              805,550       113%
 Incentive payments to             $370,000             $150,846        41%
 farmers to reforest land.
 Families receiving incentive          2,851               2,778          97%
 payments.
 Extension agents trained in                 73              67           92%
 forest management.
 Voluntary community                     540                615          114%
 promoters trained in forest
 management.
 School teachers trained                 267                210           79%
 Extension agents trained in              73                 71           97%
 forest fire prevention.
 Voluntary community                     540                615          114%
 promoters trained in forest
 fire prevention.
 Mayors trained in the                   270                445          165%
 promotion of environmental
 laws.
 Coffee, macadamia, cocoa,        1,424,300            1,757,397         123%
 citrus, and pepper plants
 distributed.




                                                                             15
                                                           Appendix III

              Planned and Actual Outputs

  Description of Outputs         Life-of-     Actual      Percentage
                                 Project    Results as of  Achieved
                                 Targets     December
                                               2000
Families receiving coffee,          5,680           5,870      103%
macadamia, cocoa, citrus,
and pepper plants.
Pounds of horticultural seeds         400           343           86%
distributed.
Families receiving                  1,440          1,225          85%
horticultural seeds.
Extension agents trained in            42            54          129%
diversification of production.
Voluntary community                   536           770          144%
promoters trained in
diversification of production.
Inter-cropping tree species        35,100         67,698         193%
distributed.
Families receiving inter-           2,700          2,655          98%
cropping tree species.
Extension agents trained in            42            52          124%
agroforestry.
Voluntary community                   536           740          138%
promoters trained in
agroforestry.
Trees provided for soil           201,000        157,000          78%
conservation purposes.
Families receiving trees for        1,340          1,168          87%
soil conservation purposes.
Extension agents trained in            42            54          129%
soil conservation.
Voluntary community                   536           770          144%
promoters trained in soil
conservation.
Extension agents trained in            42            54          129%
seed and plant techniques.
Voluntary community                   536           742          138%
promoters trained in seed
and plant techniques.
Pounds of organic                 130,000        645,000         496%
chicken manure
distributed.




                                                                     16
                                                              Appendix III

             Planned and Actual Outputs

   Description of Outputs        Life-of-         Actual      Percentage
                                 Project        Results as of  Achieved
                                 Targets         December
                                                   2000
Families receiving organic           1,400              1,440      103%
chicken manure.
Small scale irrigation                      3             0            0%
systems rehabilitated.
Families receiving household          800               348            44%
renewable energy
technologies.
                                Table 2

CIPREDA and the U.S. Army Corps of Engineers

 Description of Outputs      Actual Results as of April          On
                                       2001                   Schedule?
Santa Lucía irrigation       Completed.                         Yes.
rehabilitation ($609,400
budgeted).
La Playa highway             Completed.                         Yes.
protection (five dikes)
($450,000 budgeted).
Quiriquá flood protection    Completed.                         Yes.
($132,558 budgeted).
El Rancho-Jícaro             Completed.                         Yes.
irrigation canal, site 1
($78,730 budgeted).
El Rancho-Jícaro             Completed.                         Yes.
irrigation canal, site 2
($37,293 budgeted).
El Jícaro land reclamation   Being approved by                   NA
($93,824 budgeted).          USAID/Guatemala.
Cabañas irrigation system    Under construction.                Yes.
($1,034,400 budgeted).
Cahaboncito flood            In contracting phase.              Yes.
protection ($471,000
budgeted).
La Tinta dikes and           Under construction.                 No.
barriers ($300,000
budgeted).
                                Table 3




                                                                          17
